Case: 21-30052

Document: 00515803604

Page: 1

Date Filed: 03/31/2021

fHrnteb States Court of Appeals
for tfje jFiftfj Circuit
United States Court of Appeals
Fifth Circuit

No. 21-30052

FILED
March 31,2021
Lyle W. Cayce
Clerk

Samantha J. Jackson

Plaintiff—Appellant,
versus
AT&T Retirement Savings Plan;
AT&T Pension Benefit Plan Mobility Program;
AT&T Incorporated; AT&T Services, Incorporated;
Fidelity Workplace Services, L.L.C.;
AT&T Mobility Services, L.L.C.,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Louisiana
No. 6:19-CV-116

“Before Smith, Willett, and Engelhardt, Circuit Judgesi
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City of Seven Points, 230 F.3d 167T169 (5th Cir.
2000). Per 7.8 TI.S.C. S 2107(al and Federal Rule of Appellate Procedure
4(a) UK AT the notice of appeal in a civil case must be filed within thirty days
of entry of judgment.

Case: 21-30052

Document: 00515803604

Page: 2

Date Filed: 03/31/2021

No. 21-30052
In this Fair Labor Standards Act case, the district court entered judg­
ment dismissing the complaint on March 25,2020. A timely notice of appeal
and notice of cross-appeal were filed. The appeals remain pending before
this court. See No. 20-30255.
On November 16, 2020, plaintiff moved for relief from judgment
under Federal RhIp nf Civil Procedure 60(V) and for an indicative ruling
under Rule 62.1. The district court denied the motion on December 22,
2020. Therefore, the final day for filing a timely notice of appeal was Janu­
ary 21, 2021. The plaintiffs notice of appeal was filed on January 27, 2021.
When set by statute, the time limitation for filing a notice of appeal in
a civil case is jurisdictional. Hamer v. Neighborhood Hous. Servs. of Chi.,
138 S. Ct. 13.17 (2017); Bowles v. Russell, 551 U.S. 205.214 (2007). The lack
of a timely notice mandates dismissal of the appeal. United States v. GarciaMachado, 845 F.2d 492. 493 (5th Cir. 1988). Accordingly, the appeal is
DISMISSED for want of jurisdiction.

2

Case: 21-30052

Document: 00515820417

Page: 1

Date Filed: 04/13/2021

fHrntet) States Court of Appeals
for tljc Jftftf) Circuit
No. 21-30052

Samantha J. Jackson
Plaintiff—Appellant,
versus
AT&T Retirement Savings Plan;
AT&T Pension Benefit Plan Mobility Program;
AT&T Incorporated; AT&T Services, Incorporated;
Fidelity Workplace Services, L.L.C.;
AT&T Mobility Services, L.L.C.,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Louisiana
No. 6:19-CV-116

Before Smith, Willett, and Engelhardt, Circuit Judges.
Per Curiam:
On March 31, 2021, this panel dismissed the appeal for want of juris­
diction. Appellant’s motion for reconsideration is DENIED.

Case 6:19-cv-00116-MJJ-PJH Document 83-1 Filed 03/25/20 Page 1 of 1 PagelD #: 2604

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
LAFAYETTE DIVISION
SAMANTHA J JACKSON

CASE NO. 6:19-CV-00116

VERSUS

JUDGE JUNEAU

AT&T RETIREMENT SAVINGS
PLAN ET AL

MAGISTRATE JUDGE HANNA

JUDGMENT
This matter was referred to United States Magistrate Judge Patrick J. Hanna
for report and recommendation. After an independent review of the record, and after
consideration of objections filed, this Court concludes that the Magistrate Judge’s
report and recommendation is correct and adopts the findings and conclusions
therein as its own. Accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that, consistent with the
report and recommendation, Defendants’ Motions to Dismiss at Rec. Doc. 72 is
GRANTED.
Signed at Lafayette, Louisiana, this 25th day of March 2020.

5%

MICHAEL J. JUNEAU
UNITED STATES DISTRICT JUDGE

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 1 of 24 PagelD #: 2257

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
LAFAYETTE DIVISION
SAMANTHA J JACKSON

CASE NO. 6:I9-CV-00116

VERSUS

JUDGE JUNEAU

AT&T RETIREMENT SAVINGS MAGISTRATE JUDGE HANNA
PLAN ET AL
REPORT AND RECOMMENDATION
Before the Court is the Motion to Dismiss Plaintiffs Fourth Amended
Complaint pursuant to F.R.C.P. Rule 12(b)(6) filed on behalf of Defendants, AT&T
Retirement Savings Plan, Mobility Program of the AT&T Benefit Plan, Fidelity
Workplace Services LLC, and AT&T Mobility Services, LLC. (Rec. Doc. 72).
Plaintiff, Samantha Jackson, proceeding pro se, opposed. (Rec. Doc. 75).
Defendants replied. (Rec. Doc. 76). The Motions were referred to the undersigned
magistrate judge for review, report, and recommendation in accordance with the
provisions of 28 U.S.C. §636 and the standing orders of this Court. Considering the
evidence, the law, and the arguments of the parties, and for the reasons fully
explained below, it is recommended that Defendants’ Motion to Dismiss be
GRANTED.
Factual and Procedural History
This is the second time Defendants have moved to dismiss Plaintiffs
complaint. Plaintiff, a pro se litigant, filed this lawsuit on January 29, 2019 alleging

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 2 of 24 PagelD #: 2258

various transgressions against Defendants related to her employment with AT&T,
including primarily ERISA-based claims. (Rec. Doc. 1; 3). She amended the
Complaint three times (Rec. Doc. 3; 17; 22; 28) before the Court considered a series
of Defendants’ Rule 12(b)(6) motions to dismiss.
After considering voluminous pleadings and the parties’ arguments at a
hearing on Defendants’ four prior motions to dismiss, the Court issued a Report and
Recommendation, subsequently adopted by the District Court, with clarification,
wherein the Court dismissed Plaintiffs claims for fraud, violations of the Fair Labor
Standards Act, tortious interference with contract, defamation, negligent infliction
of emotional distress (NIED), intentional infliction of emotional distress (IIED),
negligent employment decisions, and all claims against AT&T Inc. for lack of
jurisdiction. The Court denied Defendant’s motions to dismiss Plaintiffs ERISA
claims for breach of fiduciary duty under 29 U.S.C. §1132 and held that Plaintiff be
given an opportunity to amend to assert facts regarding her discovery that the
allegedly improper conduct constituted a breach of fiduciary duties, for purposes of
determining whether her claims are time-barred. (Rec. Doc. 53, adopted, with
clarification, at Rec. Doc. 67).
Pursuant to the Court’s Order, Plaintiff filed her Fourth Amended Complaint
on November 19, 2019. (Rec. Doc. 71). The Fourth Amended Complaint
“incorporates by reference each breach of fiduciary duty claim and count, request
2

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 3 of 24 PagelD #: 2259

for damages, and all supporting evidence set out in her Original Complaint as well
as her First and Third Amended Complaints[.]” (Rec. Doc. 71, p. 4). The Fourth
Complaint sets forth the following pertinent factual allegations:
• Plaintiff began her employment with Cingular Wireless in July 2003, during
which time she participated in the Cingular Wireless 401(k) Savings Plan
(which consisted of a 90% employer match) and the Cingular Wireless
Bargained Pension Plan (which was fully funded by the employer). (Rec. Doc.
71, ]J30, p. 13). During her Cingular employment, Plaintiff and other
employees participated in the monthly incentive program. Their total
compensation included overtime and supplemental compensation.
• In December 2008, the Cingular 401(k) Plan merged into the AT&T
Retirement Savings Plan, which provided an 80% employer match. In 2006,
the Cingular Pension Plan became the Wireless Program of the AT&T
Pension Benefit Plan, and in July 2011, it was renamed the Mobility Program
of the AT&T Pension Benefit Plan. This Plan was fully funded by the
employer. With the AT&T Plans, the employees’ compensation was defined
as base pay, lump sum special payments, and nondiscretionary incentive
compensation (with each term further specifically defined). (Rec. Doc. 71

TOP-14).

3

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 4 of 24 PagelD #: 2260

• The employees participated in the AT&T Monthly Incentive Program, paid
bi-weekly. The Incentive Program operates as a guarantee that AT&T will pay
the employees upon meeting the guidelines. (Rec. Doc. 71, ^|30, p. 14-15).
• In June 2015, managers informed employees that incentive payouts would be
applied to debit cards to help with taxes. On July 24, 2015, Plaintiff inquired
as to what the tax treatment code, “Non-cash Awd Tax Gross-up” meant under
the new rules. (Rec. Doc. 71, ^31, p.12). Thereafter, the Complaint details
Plaintiffs ongoing attempts to get clarification from various departments on
how payroll incentives were coded and taxed and to obtain pertinent Plan
documents through at least February 2017. (Rec. Doc. 71, ^31, p. 16-22).
Throughout 2017, 2018, and 2019 Plaintiff continued researching, including
reviewing the Plan documents (which she apparently received in 2017), and
became aware of additional issues regarding tax coding of incentive payments
and compensation. (Rec. Doc. 71, ^31-32, p. 22-28).
• In January 2019, Plaintiff realized that her Cingular 401(k) Plan had been
erroneously terminated and transferred to the AT&T Retirement Savings Plan
by an unsigned and undated document, “the 11th Amendment.” (Rec. Doc. 71,
132, p. 28-29).
• In August 2019, Plaintiff realized that checks dated from October 14, 2016
through January 18, 2019 reflected that incentives were paid 45-60 days after
4

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 5 of 24 PagelD #: 2261

the performance period. Further, Plaintiff alleged generally that employees in
the position of Customer Service Rep. I were paid less, though they
temporarily performed the work of a Customer Service Rep. II. Plaintiff did
not allege whether she held the position of Customer Service Rep. I. (Rec.
Doc. 71,^32, p. 44-45).
• In February 2018, Plaintiff directed Fidelity (administrator of the AT&T
Plans) to exchange certain funds in the Savings Plan and to change future
contribution allocations; however, Fidelity did not properly complete the
exchange. After reviewing tape recordings between Plaintiff and the Fidelity
Representation regarding Plaintiffs instructions for the exchange and several
additional discussions with Fidelity representatives, the exchanges were in
April 2018. Plaintiff claims she suffered a loss of $45.92 as a result of the
delayed exchanges. She further alleged that Fidelity’s actions vis-a-vis the
fund exchanges caused her to suffer individual losses since 2015, which have
not been restored and therefore caused losses to the plan as a whole. (Rec.
Doc. 71,H34, p. 31-33).
Based on the foregoing factual allegations, Plaintiffs Fourth Amended
Complaint asserts only Count I for Breach of Fiduciary Duty, arising out of 1)
Defendants’ alleged improper termination and transfer of the Cingular Plan,
resulting in smaller contribution amounts, in detriment to the plan; 2) Defendants’
5

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 6 of 24 PagelD #: 2262

hindering of Plaintiff from obtaining plan-related information; 3) Defendants’
failure to timely segregate Plan assets from Defendants’ general assets; and 4)
Defendants’ improper compensation calculations and classifications, inter alia, in
violation of ERISA, 29 U.S.C. § 1104(a)(1). (Rec. Doc. 71,135, p. 33-40).
Defendants filed the Motion to Dismiss Plaintiffs Fourth Amended
Complaint on the grounds that 1) Plaintiffs claims are individual claims for benefits
disguised as ERISA breach of fiduciary duty claims; 2) her factual allegations do not
show a breach of fiduciary duties; and 3) breach of fiduciary duty claims are
untimely. (Rec. Doc. 72-1, p. 14-28).
Law and Analysis
I.

Law applicable to Rule 12(b)(6I.
When considering a motion to dismiss for failure to state a claim under

F.R.C.P. Rule 12(b)(6), the district court must limit itself to the contents of the
pleadings, including any attachments and exhibits thereto. Collins v. Morgan Stanley
Dean Witter, 224 F.3d 496, 498 (5th Cir.2000); U.S. ex rel. Riley v. St. Luke's
Episcopal Hosp., 355 F.3d 370, 375 (5th Cir.2004). The court must accept all wellpleaded facts as true and view them in the light most favorable to the plaintiff. In re
Katrina Canal Breaches Litigation, 495 F.3d 191, 205 (5th Cir.2007) (internal
quotations omitted) (quoting Martin K. Eby Constr. Co. v. Dallas Area Rapid
Transit, 369 F.3d 464, 467 (5th Cir.2004)); Baker v. Putnal, 75 F.3d 190, 196 (5th
6

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 7 of 24 PagelD #: 2263

Cir.1996). However, conclusory allegations and unwarranted deductions of fact are
not accepted as true, Kaiser Aluminum & Chemical Sales v. Avondale Shipyards,
677 F.2d 1045, 1050 (5th Cir. 1982) (citing Associated Builders, Inc. v. Alabama
Power Company, 505 F.2d 97, 100 (5th Cir. 1974)); Collins v. Morgan Stanley, 224
F.3d at 498. Courts “are not bound to accept as true a legal conclusion couched as a
factual allegation.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(quoting Papasan v. Allain, 478 U.S. 265, 286 (1986)).
To survive a Rule 12(b)(6) motion, the plaintiff must plead “enough facts to
state a claim to relief that is plausible on its face.” Bell Atlantic, 127 U.S. at 570. The
allegations must be sufficient “to raise a right to relief above the speculative level,”
and “the pleading must contain something more ... than ... a statement of facts that
merely creates a suspicion [of] a legally cognizable right of action.” Id. at 555
(quoting 5 C. Wright & A. Miller, Federal Practice and Procedure § 1216, pp. 23536 (3d ed. 2004)). “While a complaint... does not need detailed factual allegations,
a plaintiffs obligation to provide the grounds of his entitlement to relief requires
more than labels and conclusions, and a formulaic recitation of the elements of a
cause of action will not do.” Id. (citations, quotation marks, and brackets omitted;
emphasis added). See also Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). If the
plaintiff fails to allege facts sufficient to “nudge[ ][his] claims across the line from

7

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 8 of 24 PagelD #: 2264

conceivable to plausible, [his] complaint must be dismissed.” Bell Atlantic v.
Twombly, 127 U.S. at 570.
A claim meets the test for facial plausibility “when the plaintiff pleads the
factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. at 678.
“[Determining whether a complaint states a plausible claim for relief . . . [is] a
context-specific task that requires the reviewing court to draw on its judicial
experience and common sense.” Id. at 679. Therefore, “[t]he complaint (1) on its
face (2) must contain enough factual matter (taken as true) (3) to raise a reasonable
hope or expectation (4) that discovery will reveal relevant evidence of each element
of a claim.” Lormand v. US Unwired, Inc., 565 F.3d 228, 257 (5th Cir.2009) (quoting
Bell Atlantic v. Twombly, 127 U.S. at 556). See also In Re Southern Scrap, 541 F.3d
584, 587 (5th Cir.2008).
Defendants’ challenges to Plaintiffs Fourth Amended Complaint are
reminiscent of their arguments to dismiss Plaintiffs prior complaints. Thus, the
Court’s analysis is similar.
II.

Whether Plaintiff has stated a claim for breach of fiduciary duty
under ERISA.
“Congress enacted ERISA to ‘protect ... the interests of participants in

employee benefit plans and their beneficiaries’ by setting out substantive regulatory
requirements for employee benefit plans and to ‘provid[e] for appropriate remedies,

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 9 of 24 PagelD #: 2265

sanctions, and ready access to the Federal courts.’” Aetna Health Inc. v. Davila, 542
U.S. 200, 208 (2004), quoting 29 U.S.C. §1001(b). Plaintiff asserts ERISA breach
of fiduciary duty claims under 29 U.S.C. §§ 1103(c)(1); 1104(a)(l)(A)(B) and (D);
1105(a); 1106(a)(1)(D) and (b)(1).
A. Whether Plaintiffs allegations present a claim for breach of fiduciary
duties or a disguised claim for benefits.
Defendants again argue that Plaintiffs claims for breach of fiduciary duties
are in fact disguised claims for individual benefits, again relying upon Haydel v.
Dow Chem. Co., No. CV 07-71-JJB, 2007 WL 9706565, at *2-3 (M.D. La. July 19,
2007). As discussed in the Court’s prior Report and Recommendation, breach of
fiduciary duty claims under ERISA must be distinguished from claims for benefits,
in that benefits claims require administrative exhaustion, while fiduciary claims do
not Rec. Doc. 53, p. 7 (adopted, with clarification by Rec. Doc. 67), citing Galvan
v. SBC Pension Benefit Plan, 204 F. App'x 335, 339 (5th Cir. 2006) “[T]he
exhaustion requirement [also] applies to fiduciary claims that are [] disguised
benefits claims, not to true breach-of-fiduciary-duty claims.” Id. citing Simmons v.
Willcox, 911 F.2d 1077, 1081 (5th Cir.1990) (Emphasis in original.). See further
discussion at Rec. Doc. 53, p. 7-12.
The Court does not agree with Defendants that Plaintiffs claim regarding the
Plan contribution/compensation issue is a disguised claim for benefits. As with
Plaintiffs prior Complaints, the Fourth Complaint alleges that she. and other

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 10 of 24 PagelD #: 2266

employees suffered losses in the form of less contributions to the Plans due to
Defendants’ allegedly improper classification of compensation. (See e.g. Rec. Doc.
71, Tf30-31, p. 13-15, wherein Plaintiff alleges facts pertaining to her and other
employees’ participation in the incentive program and calculation and/or coding of
employees’ compensation). One of Plaintiffs primary complaints is that incentive
payments were improperly coded on paystubs, resulting in improper taxing and
contributions to the Plans. She did not allege that she was the only employee subject
to the improper taxing and deficient contributions. It is reasonable to assume, based
on Plaintiffs allegations, that other employees’ incentive payouts and compensation
were coded similarly. Further, Plaintiff specifically alleged that Defendants
terminated the Cingular Plan and transferred it to the AT&T Plan improperly,
resulting in a lower company match benefit, which in turn “caused smaller
contribution amounts which were a detriment to the plan[] and its assets.” (Rec. Doc.
71, P6-37). Likewise, Plaintiff asserts numerous allegations regarding the
detrimental effect of Defendants’ conduct on the plan as a whole (see e.g. Rec. Doc.
71, ^[38-40) and on compensation (with requisite effects on tax treatment and
contributions) in general (see e.g. Rec. Doc. 71, ^[41 -47).
As in her prior Complaints, Plaintiffs allegations are consistently couched in
terms of the Plan(s) as a whole. Plaintiffs prayer for relief requests that Defendants
restore all losses to the Plans, among numerous other requests relative to the Plans
10

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 11 of 24 PagelD #: 2267

and employees in general. (Rec. Doc. 71, Prayer for Relief, p. 40-43). Plaintiffs
claims are not focused on her individual losses resulting from the alleged breaches.
Even had Plaintiff sought more individualized recovery, as Defendants urge, because
she has alleged the Plans are defined contribution plans,1 Plaintiffs claims would
withstand Rule 12(b)(6) scrutiny under LaRue v. DeWolff, Boberg & Assocs., Inc.,
552 U.S. 248, 256 (2008).2 Having found that Plaintiff has sufficiently alleged
claims for breach of fiduciary duties, as opposed to claims for individual benefits,
with regard to the compensation/contribution issue, the Court declines to address
Defendants’ argument that Plaintiff failed to exhaust administrative remedies or to
timely bring a claim for individual benefits within the one year statute of limitations
provided by the Plans.
On the other hand, the Court finds that Plaintiffs claims regarding Fidelity’s
alleged failure to process the fund exchange constitutes an individual claim, rather
than one for breach of fiduciary duties.3 Plaintiff alleged that on February 15, 2018,
she directed Fidelity to process fund exchanges in the Savings Plan. She alleged that
the exchange was dilatorily processed, resulting in a loss to her account. (Rec. Doc.
71, Tf 34, p. 32-33). In fact, the Fourth Amended Complaint states: “Because the fund

Rec. Doc. 71, p. 5; 23.
See discussion at Rec. Doc. 53, p. 9-11 (adopted, with clarification, at Rec. Doc. 67)
The Court previously found that the prior Complaints lacked sufficient allegations to assert
a §502(a) claim for breach of fiduciary duties with regard to the fund exchange. Thus, the
Court permitted Plaintiff to clarify facts underlying this alleged failure to process fund
exchange.
11

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 12 of 24 PagelD #: 2268

exchanges were not processed as directed and the corrections were not made as
required, the fiduciaries, plan administrators, caused Plaintiff to suffer individual
losses since 2015 which have not been restored...” (Rec. Doc. 71, |34, p. 33).
Plaintiffs conclusory statement that this “caus[ed] the losses to the plan as a whole”
does not convert the individualized claim to one for breach of fiduciary duties. Thus,
the Court recommends that Plaintiffs claims vis-a-vis the 2018 Fidelity fund
exchange be dismissed.
B. Whether Plaintiffs factual allegations state a claim for breach of
fiduciary duty.
Defendants next contend that the decision of the Plan sponsors to change the
terms upon conversion from the Cingular Plan to the AT&T Plan does not constitute
a breach of fiduciary duty. In order to state a claim for breach of fiduciary duty under
ERISA, the plaintiff must put forth facts showing: 1) that the defendant was a
fiduciary who, 2) was acting within his capacity as a fiduciary, and 3) breached his
fiduciary duty. In re Bear Stearns Companies, Inc. Sec., Derivative, & ERISA Litig.,
763 F. Supp. 2d 423, 564-65 (S.D.N.Y. 2011), on reconsideration, No. 07 CIV.
10453, 2011 WL 4072027 (S.D.N.Y. Sept. 13, 2011), and on reconsideration, No.
07 CIV. 10453, 2011 WL 4357166 (S.D.N.Y. Sept. 13, 2011), citing 29 U.S.C. §
1109. Before applying the foregoing standards, it is helpful to first condense
Plaintiffs detailed and lengthy factual allegations.

12

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 13 of 24 PagelD #: 2269

Plaintiff alleged that she began working for Cingular in 2003 and is now
employed by AT&T, since its acquisition of Cingular. (Rec. Doc. 71, ^[30). Through
detailed allegations spanning numerous pages, Plaintiff alleged that AT&T, upon
taking over Cingular and transitioning from the Cingular Plan to the AT&T Plan,
began classifying certain incentives in such a way that they were not considered for
purposes of calculating contributions to the AT&T Plan. (Rec. Doc. 71, ^|30-31). For
instance, she alleged that incentives paid as cash were at times classified as non-cash
awards or prizes. (Rec. Doc. 71, p. 17). She contends that because the incentives
were improperly coded, less money was contributed to the Plans. According to the
Plan documents, her incentives should have been included as eligible compensation.
(Rec. Doc. 71, p. 18). She attributed the allegedly improper classification of
incentives to AT&T Mobility (her employing entity). (Rec. Doc. 71, Tfl5); however,
she classified the AT&T entities, including AT&T Mobility, as a “Controlled Group
of Corporations,” and thus a single employer. Plaintiff alleged that over the course
of at least two years, she attempted to get information from AT&T about why the
incentives were classified in such a way, but that AT&T essentially evaded her
requests, by not answering her questions and not providing the plan documents.
(Rec. Doc. 71-1, |31-32). Finally having obtained pertinent Plan documents,
Plaintiff allegedly discovered that the document governing the transition from the
Cingular Plan to the AT&T Plan (“the 11th Amendment”) was unsigned and undated,
13

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 14 of 24 PagelD #: 2270

a flaw allegedly rendering the document invalid. (Rec. Doc. 71, |32). Plaintiff
alleged that “AT&T did not follow the standard process before terminating the Plans
and transferring the participants’ accounts.” (Rec. Doc. 71, p. 29). Overall, Plaintiff
appears to challenge two primary acts: 1) Defendants’ improper classification of the
incentives; and 2) Defendant’s allegedly improper transition from the Cingular Plan
to the AT&T Plan. The Court now turns to the salient inquiries.
1. Whether Defendants were fiduciaries.
ERISA defines a fiduciary as follows:
[A] person is a fiduciary with respect to a plan to the extent (i) he
exercises any discretionary authority or discretionary control respecting
management of such plan or exercises any authority or control
respecting management or disposition of its assets, (ii) he renders
investment advice for a fee or other compensation, direct or indirect,
with respect to any moneys or other property of such plan, or has any
authority or responsibility to do so, or (iii) he has any discretionary
authority or discretionary responsibility in the administration of such
plan.
29 U.S.C.A. § 1002(21).
“A person assumes fiduciary status in three ways under ERISA: first, as a
named fiduciary in the instrument establishing the employee benefit plan; second,
by becoming a named fiduciary pursuant to a procedure specified in the plan
instrument; third, as a ‘functional fiduciary’ under the broad authority, control, or
advice provisions of ERISA.” Perez v. Bruister, 823 F.3d 250, 259 (5th Cir. 2016)
(citations omitted). See also Reich v. Lancaster, 55 F.3d 1034, 1046 (5th Cir. 1995),
14

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 15 of 24 PagelD #: 2271

citing PacifiCare Inc. v. Martin, 34 F.3d 834, 837 (9th Cir.1994). (“An ERISA
fiduciary includes anyone who exercises discretionary authority over the plan's
management, anyone who exercises authority over the management of its assets, and
anyone

having

discretionary

authority

or

responsibility

in

the

plan's

administration.”)
Plaintiff alleged that AT&T Services, Inc. served as the Plan Administrator
and Named Fiduciary and that Fidelity was also a fiduciary of the Savings plan and
Pension plan. (Rec. Doc. 71, |6; 8). She further alleged AT&T Mobility and AT&T
Services are fiduciaries as the[y] exercise discretionary authority or control
respecting management or disposition of the Plan’s assets...” (Rec. Doc. 71, ^26).
These allegations are sufficient to show that Defendants are fiduciaries under
ERISA.
2. Whether Defendants were acting in their capacity as fiduciaries.
Whether Defendants qualify as fiduciaries is not the primary dispute in this
case. “ERISA does not prevent persons with ‘conflicting loyalties’—such as a
financial interest adverse to that of the ESOP beneficiaries—from serving as a
trustee or named fiduciary of the plan.” Perez, 823 F.3d at 259, citing Martinez v.
Schlumberger, Ltd., 338 F.3d 407, 412 (5th Cir.2003). “To assist in resolving this
potential conflict, the Supreme Court created the ‘two hats’ doctrine, which
acknowledges that the [fiduciary] is subject to fiduciary duties under ERISA only
15

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 16 of 24 PagelD #: 2272

‘to the extent’ that” he performs fiduciary functions as identified by Congress.” Id.
Thus, “the threshold question in every case alleging breach of an ERISA fiduciary
duty is “whether [the defendant] was acting as a fiduciary ... when taking the action
subject to complaint.” In re Bear Stearns, quoting Pegram v. Herdrich, 530 U.S.
211,226 (2000).
The Fifth Circuit has adopted the majority approach and held that, “in general,
an employer that decides to terminate, amend, or renegotiate a plan does not act as
a fiduciary, and thus cannot violate its fiduciary duty, provided that the benefits
reduced or eliminated are not accrued or vested at the time, and that the amendment
does not otherwise violate ERISA or the express terms of the plan.” Izzarelli v.
Rexene Prod. Co., 24 F.3d 1506, 1524 (5th Cir. 1994) (emphasis in original),
adopting the approach taken in Hozier v. Midwest Fasteners, Inc., 908 F.2d 1155,
1158 (3d Cir. 1990). The Court finds that, pursuant to the foregoing jurisprudence,
Plaintiffs allegations do not show that AT&T was acting as a fiduciary when
transitioning from the Cingular Plan to the AT&T Plan.

Rather, Plaintiffs

allegations show that AT&T terminated the Plan as part of its acquisition of
Cingular. This evidences an employer-rooted decision, rather than one delegated to
fiduciaries.
With regard to Plaintiffs claim that Defendant improperly terminated the
Cingular Plan with the Eleventh Amendment, “[0]nly an amendment executed in
16

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 17 of 24 PagelD #: 2273

accordance with the Plan’s own procedures and properly noticed could change the
Tim.’'1 Manuel v. Turner Indus. Grp., L.L.C., 905 F.3d 859, 872 (5th Cir. 2018), reh'g
denied (Nov. 2, 2018), quoting Williams v. Plumbers & Steamfitters Local 60
Pension Plan, 48 F.3d 923, 926 (5th Cir. 1995). Thus, if the Eleventh Amendment
was not promulgated pursuant to the procedures set forth in the Plan, it is invalid.
Plaintiff alleges that the Eleventh Amendment was undated and unsigned, rendering
it invalid. The allegations do not show (and Plaintiff did not attach complete Plan
documents to show) that Amendments had to be executed to take effect. Otherwise,
the Complaint does not allege other grounds supporting that the Cingular Plan was
improperly terminated.
Even further attenuated from their roles as fiduciaries is Defendants’ alleged
improper classification of the incentives. Rather, the alleged facts suggest that
Defendants were merely acting in their capacity as employer when paying cash
incentives and coding them as they did on employee pay checks. The facts do not
suggest that Defendants were acting in their roles as plan administrators at the time
they allegedly improperly classified the incentives. Thus, because AT&T was not
acting in its capacity as a fiduciary at the times of the challenged actions, Plaintiff
has failed to state a claim for breach of fiduciary duties; however, the Court will
address the remaining issues for sake of completeness.

17

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 18 of 24 PagelD #: 2274

3. Whether Defendants breached fiduciary duties.
Fiduciaries are charged with extensive obligations enumerated in 29 U.S.C.
§1104, including the discharge of their duties with respect to a plan solely in the
interest of the participants and beneficiaries and with care, skill, prudence, and
diligence; the diversification of the investments of the plan so as to minimize the
risk of large losses; and the management of the plan in accordance with its governing
documents and instruments. § 1104(a).
Certain fiduciary duty breaches can injure 401(k) participants generally
and indiscriminately: theft from the plan; mapping; noncompliance
with ERISA-mandated duties to inform; engaging in transactions that
involve conflicts of interest; and setting unreasonable blackouts are
among the possibilities. Allegations that ERISA fiduciaries promoted
company stock to prop up its value or misled participants could also
state plan-wide breaches of fiduciary duties.
Langbecker v. Elec. Data Sys. Corp., 476 F.3d 299, 308 (5th Cir. 2007)
(citations omitted).
A change of plan terms does not constitute a breach of fiduciary duty.
Izzarelli, 24 F.3d at 1524, quoting Phillips v. Amoco Oil Co., 799 F.2d 1464, 1471
(11th Cir.1986), cert, denied, 481 U.S. 1016, 107 S.Ct. 1893, 95 L.Ed.2d 500
(1987)), cert, denied,

U.S.

, 114 S.Ct. 196, 126 L.Ed.2d 154 (1993).

(“ERISA simply does not prevent a company from eliminating previously offered
benefits that are neither vested nor accrued.”). The Court finds that Plaintiffs
allegations show that AT&T’s conduct in transitioning from the Cingular Plan to the
AT&T Plan(s) is akin to a change of plan terms, which does not constitute a breach
18

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 19 of 24 PagelD #: 2275

of fiduciary duty, absent specific factual allegations that the Eleventh Amendment
was required to be executed in order to be effective.
Plaintiff further alleged that AT&T breached its fiduciary duties by 1) failing
to segregate Plan assets from general assets by not collecting, matching and
remitting contributions immediately; 2) failing to include overtime and other forms
of compensation as eligible compensation; and 3) manipulated tax treatment codes
to cause incentive payouts to be excluded from eligible compensation, inter alia.
(Rec. Doc. 71, ^40-48). The Court finds that, although these actions may suggest a
breach of some other employer-related duties, these allegations do not show
breaches of ERISA fiduciary duties. Assuming these allegations as true, the alleged
acts vis-a-vis employee compensation are too attenuated from plan-related activities
to invoke ERISA fiduciary duties. Therefore, the Court finds that Plaintiff has failed
to state a claim for breach of fiduciary duties.
C. Whether Plaintiffs breach of fiduciary duty claims are time-barred.
Defendants next move to dismiss Plaintiffs breach of fiduciary claims as time
barred under §413, 29 U.S.C. §1113, which provides:
No action may be commenced under this subchapter with respect to a
fiduciary's breach of any responsibility, duty, or obligation under this
part, or with respect to a violation of this part, after the earlier of—
(1) six years after (A) the date of the last action which constituted a part
of the breach or violation, or (B) in the case of an omission the latest
date on which the fiduciary could have cured the breach or violation,
or
19

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 20 of 24 PagelD #: 2276

(2) three years after the earliest date on which the plaintiff had actual
knowledge of the breach or violation;
except that in the case of fraud or concealment, such action may be
commenced not later than six years after the date of discovery of such
breach or violation.
§413 is one of repose, “establishing an outside limit of six years in which to
file suit, and tolling does not apply.” Radford v. Gen. Dynamics Corp., 151 F.3d 396,
400 (5th Cir.1998). “As a statute of repose, §413 serves as an absolute barrier to an
untimely suit.” Id. “Under this statutory scheme, the limitations period for ERISA
claims is generally six years, unless defendants can show that the plaintiffs had
actual knowledge of alleged wrongdoing, in which case section 1113(2) extinguishes
the claim after three years.” Smith v. Prager, 108 F.3d 333 (5th Cir.1997). The only
exception to the six-year time period is in the case of fraud or concealment, in which
case the six-year period runs from the date of discovery. This Court has already
found Plaintiff did not state a claim for fraud. (Rec. Doc. 53, and as recognized by
the District Court at Rec. Doc. 67). Otherwise, as applicable here, the statutory
period of limitations commences with the plaintiffs actual knowledge of the breach:
[Actual knowledge] requires a showing that plaintiffs actually knew not
only of the events that occurred which constitute the breach or violation
but also that those events supported a claim for breach of fiduciary duty
or violation under ERISA.
Maher v. Strachan Shipping Co., 68 F.3d 951, 954 (5th Cir.1995),
quoting and adopting the Third Circuit’s standard in Int'l Union v.
Murata Erie North America, 980 F.2d 889, 900 (3d Cir.1992).
20

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 21 of 24 PagelD #: 2277

In other words, a participant’s knowledge of an event alone is insufficient to
trigger the time delays of §413. The participant’s knowledge that the event may
constitute a breach of fiduciary duty triggers the applicable time period. See also
United States v. Ret. Servs. Grp., 302 F.3d 425, 433 (5th Cir. 2002), quoting Maher,
68 F.3d at 955 (quoting Brock v. Nellis, 809 F.2d 753, 755 (11th Cir.1987) with
approval). (“To charge the Secretary [of Labor] with actual knowledge of an ERISA
violation, it is not enough that he had notice that something was awry; he must have
had specific knowledge of the actual breach of duty upon which he sues.”). Absent
fraud or concealment, a participant may not bring a claim later than “six years after
the date of discovery of such breach or violation.” §413. “Discovery >> u must mean
something more than to suspect but something less than to confirm with absolute
certainty as to all the possibly material details.” U.S. v. Ret. Servs. Group, supra,
relying on Maher in interpreting 12 U.S.C. §1715z-4a.
Plaintiff alleged that she and other employees began participating in the
AT&T Plan in 2009. (Rec. Doc. 71, |30, p. 14). In July 2015, she inquired as to the
meaning of the tax treatment code on her check stub. (Rec. Doc. 71, |31, p. 12).
Throughout 2015, she continued to inquire about the tax treatment codes, receiving
no answers. (Rec. Doc. 71, f31, p. 13). In January 2016, Fidelity informed her that
the contributions posted to the participant’s accounts within three business days and
that overtime was excluded from eligible compensation; however, Fidelity did not
Z,1

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 22 of 24 PagelD #: 2278

answer her questions regarding the tax treatment codes at that time. (Rec. Doc. 71,
]f31, p. 14). In February 2016, she was instructed to request the Plan Text, but she
did not receive the Plan Text until October 2016, after months of attempting to obtain
it from Defendants. (Rec. Doc. 71,131, p. 14-15). She continued to communicate
with an AT&T attorney, who advised her in February 2017 to obtain a copy of the
Incentive Plan. (Rec. Doc. 71, f31, p. 16). Throughout 2017, 2018, and 2019, she
continued to seek answers from Defendants and continued to research the issues.
(Rec. Doc. 71, p. 18-25). She filed this suit on January 29, 2019. (Rec. Doc. 1).
Assuming for these purposes that the conduct complained of constitutes a
breach of fiduciary duties, Plaintiffs time to file suit did not commence until she
had actual knowledge that Defendants’ alleged conduct potentially constituted a
breach of fiduciary duty. Plaintiffs allegations indicate a pattern of ongoing attempts
beginning in 2016 to gather information about whether the perceived issues were
improper. She did not receive a copy of the Plan Text until October 2016, and the
bulk of her research appears to have occurred in 2017 and 2018. As such, Plaintiff
did not obtain the requisite actual knowledge until after 2016, rendering her claims
for breach of fiduciary duties timely. Although subsequent discovery could reveal
facts suggesting that Plaintiff had the requisite actual knowledge prior to 2016, the
factual allegations, construed in Plaintiffs favor, show that Plaintiffs claims are
timely as having been filed within three years of her actual knowledge.
22

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 23 of 24 PagelD #: 2279

Conclusion
The Court finds that Plaintiff has presented claims for breach of fiduciary
duties, rather than a disguised claim for benefits, and that these claims are timely
under §1113. However, the Court finds that Plaintiff has failed to state a claim upon
which relief can be granted under the ERISA statutes, because the allegations do not
show that Defendants were acting in their fiduciary capacities at the time of the
challenged conduct alleged. Neither do Plaintiffs allegations show that Defendants’
alleged conduct constituted a breach of fiduciary duties under §1104. For these
reasons, the Court recommends that Defendants’ Motion to Dismiss (Rec. Doc. 72)
be GRANTED.
Under the provisions of 28 U.S.C. § 636(b)(1)(C) and Fed. R. Civ,. P. 72(b),
parties aggrieved by this recommendation have fourteen days from service of this
report and recommendation to file specific, written objections with the Clerk of
Court. A party may respond to another party’s objections within fourteen days after
being served with of a copy of any objections or responses to the district judge at the
time of filing.
Failure to file written objections to the proposed factual findings and/or the
proposed legal conclusions reflected in the report and recommendation within
fourteen days following the date of its service, or within the time frame authorized
by Fed. R. Civ. P. 6(b), shall bar an aggrieved party from attacking either the factual
23

Case 6:19-cv-00116-MJJ-PJH Document 78 Filed 02/18/20 Page 24 of 24 PagelD #: 2280

findings or the legal conclusions accepted by the district court, except upon grounds
of plain error. See Douglass v. United Services Automobile Association, 79 F.3d
1415 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C.
§636(b)(l).

THUS DONE in Chambers, Lafayette, Louisiana on this 18th day of
February, 2020.
PATRICK \
[A
UNITED STATE MAGISTRATE JUDGE

24

Additional material
from this filing is
available in the
Clerk's Office.

